CERTIFICATE OF WORD COUNT
NO. TBD
Superintendent Houtzdale SCI Et Al. ,
Petitioners,
v.
Aaron Edmonds Tyson,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the SUPERINTENDENT
HOUTZDALE SCI ET AL. PETITION FOR WRIT OF CERTIORARI contains 7596 words, including the parts
of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
December 18, 2020

SCP Tracking: Mancuso-701 Main Street-Cover White

